In response to the draft report, CAAM management generally agreed to take corrective
actions. They discussed the following actions they have already implemented, as well
as, others that are underway:

   •   Changing grant reporting format – to include in its reports to CPB a list of grants
       in negotiations, de-obligations and re-grants, as well as new commitments.
   •   Integrating finance department and programs department reporting – all sub-
       recipient contracts and project progress will be reviewed by the finance
       department. All financial reports will be cross-checked with program staff.
   •   Instituted annual communications with grantees to obtain ancillary income
       reports. These reports will then be summarized and submitted to CPB annually.
   •   Modifying grant agreements with new sub-recipient reporting requirements – a
       revised contract template for grantees will be submitted to CPB for review by
       May 31, 2011.
   •   Establishing written policies & procedures, including separation of duties, control
       measures, and oversight, are currently being developed. A completed manual
       will be submitted to CPB by July 1, 2011.

CAAM’ complete response to the draft report is attached in Exhibit I.

Based on CAAM’s response to the draft report, we consider recommendation 5 resolved
and closed; recommendations 3 and 4 resolved, but open pending CPB management’s
acceptance of CAAM’s corrective actions; and recommendations 1, 2, and 6
unresolved.

In accordance with CPB audit resolution procedures, CPB management is responsible
for determining the corrective actions to be taken. Please provide us with a written
response to our findings and recommendations within 180 days of this final report. For
corrective actions planned, but not completed by the response date, please provide
specific milestone dates when planned corrective actions will be completed.

We performed this audit based on the Office of Inspector General’s (OIG) Annual Plan,
to perform reviews of a cross-section of stations and organizations comprising the
public broadcasting system. We performed our audit in accordance with Government
Auditing Standards. Our Scope and Methodology is discussed in detail in Exhibit A.




                                            2
                                    BACKGROUND

In 1988, Congress mandated the creation of a service dedicated to independently
produced programming that takes creative risks, sparks public dialogue, and gives voice
to underserved communities. Since 1990, as required by the Public Broadcasting Act of
1967, CPB has funded an independent television production service. CAAM is one of five
minority public broadcasting consortia designated by CPB to fund public television
programs produced by independent producers and independent production entities. As
required by law, these funds are to be used to expand diversity and promote innovation in
programming available to public broadcasting.

CAAM was incorporated on December 12, 1980 and began operations in San Francisco,
California. CAAM, formerly known as the National Asian American Telecommunications
Association (NAATA), has grown into the largest organization dedicated to the
advancement of Asian Americans in independent media, specifically, in the areas of
television, filmmaking, and digital media. CAAM provides funding and support for
provocative and engaging Asian American film and media projects from independent
producers, and presents their innovative work on public television.

Since launching the groundbreaking Asian American anthology series “Silk Screen” on
PBS in 1982, CAAM continues to bring award-winning works to millions of viewers
nationwide. Between 2007 and 2009, CAAM programming won 11 awards and honors,
including four Henry Hampton Awards, one National Emmy Award, three Regional
Emmy Awards, one Columbia DuPont Journalism Award, one Peabody Award, and one
Academy Award nomination. CAAM films have won numerous film festival awards e.g.,
Silverdocs, Berlin, Al Jazeera, San Francisco International Film Festival, and the San
Francisco International Asian American Film Festival.

The primary work of CAAM is to provide financial support and services for independent
programming that serves public broadcasting with both documentaries and narrative
films, while pursuing cultural, ethnic communities and geographic diversity in its allocation
of resources. In addition, CAAM houses an educational catalog including more than 250
titles, constituting the country’s largest collection of Asian American films and videos for
educational distribution. CAAM’s award-winning documentaries, personal stories, dramas
and experimental works reflect the rich history and diversity of Asian people in the United
States and globally.

CAAM is governed by a 16-member board of directors, which includes media executives,
academics, entrepreneurs, investment banking professionals, media arts and community
leaders, as well as, independent filmmakers. CAAM has a major role in developing
independent projects for public television, and currently delivers 8 to 14 hours of


                                              3
independently produced programs to public television each year, which is a significant
percentage of the Asian American independent work supported by CPB.

Since 1990 CAAM has received almost $20 million from CPB to fund independent
productions in order to provide independent producers increased access to the public
television system, and bring innovative programming to the American people. The most
recent CPB grants to CAAM for FY 2008-FY 2010 included an operations and separate
production components.

            CPB GRANTS AWARDED TO CAAM FOR FY2008-2010 ACTIVITIES

        Fiscal Year        Operations Grant          Production Grant       Total Award

           2008                 $605,0001                 $636,363         $1,241,363

           2009                  235,0002                  686,363             921,363

           2010                  555,000                   954,545           1,509,545

          Totals               $1,395,000                $2,277,571        $3,672,271

In analyzing these operations and production grants on a fiscal basis, we identified that in
FY 2008 $354,000 of $1,241,363 (29 percent) in total CPB funding was budgeted for
programming from independent producers (Exhibits B and E). In FY 2009, $330,000 of
$921,363 (36 percent) was budgeted for programming (Exhibits C and F) and in FY 2010
$472,000 of $1,509,545 (29 percent) was budgeted for programming (Exhibits D and G).

CPB’s funding to CAAM in FY 2008 represented 44 percent of the total revenues reported
on their financial statements, and for FY 2009 CPB funding represented 59 percent of
their total revenues.




1
    Grant extended six months to end on March 31, 2009.
2
    Grant period reduced to six months ending on September 30, 2009.


                                                    4
                               RESULTS OF REVIEW

We have audited the accompanying CAAM financial grant reports (Exhibits B-G) as of
January 31, 2010. These financial reports are the responsibility of CAAM’s
management. Our responsibility is to express an opinion on these financial reports
based on our audit.

We conducted our audit in accordance with auditing standards applicable to financial
audits contained in Government Auditing Standards, issued by the Comptroller General
of the United States. Those standards require that we plan and perform the audit to
obtain reasonable assurance about whether the financial reports presented are free of
material misstatement. An audit includes examining, on a test basis, evidence
supporting the amounts reported to CPB and compliance with grant agreement and
statutory requirements. We believe that our audit provides a reasonable basis for our
opinion.

In our opinion, except for the following items of noncompliance, the financial grant
reports referred to above present fairly, in all material respects, the CPB grant activities
of CAAM as of January 31, 2010, in compliance with grant agreements and statutory
requirements.

   •   Questioned cost of $95,000 related to not returning funds de-obligated from CPB
       grants that had lapsed;
   •   Sub-recipient reporting of CPB expenditures;
   •   Reporting ancillary revenues to CPB; and
   •   Establishing adequate internal controls over financial and media department
       operations to ensure compliance with CPB grant requirements.

We also found opportunities to restructure future CAAM grant agreement terms to
provide more accountability over CAAM grant activities by requiring CAAM to report
interest earned on all CPB funds. Such action will provide improved accountability over
the availability of CPB funds.




                                              5
                    FINDINGS AND RECOMMENDATIONS

Returning De-obligated Grant Funds to CPB

Our review of production licensing agreements identified that CAAM did not return
production funds de-obligated from projects after the CPB grant term had expired, as
required by its grant agreement. Instead, CAAM recommitted these funds to complete
more recent productions. CAAM’s FY 2009 records identified $95,000 in de-obligations
for five productions. By not returning these de-obligated funds, CAAM increased their
available funding for other productions without CPB’s full knowledge and approval
before the grant period expired. This did not provide CPB the opportunity to decide how
best to utilize these funds to address current CPB priorities.

The FY 2008 production grant agreement Section II paragraph 1 established the period
of the grant from October 1, 2007 through September 30, 2010. This same paragraph
stated that . . . “no production funding shall be provided to CAAM hereunder that is not
committed by CAAM to a third party within the period October 1, 2007 through
September 30, 2009.” CPB officials clarified these grant terms by explaining that
CAAM had three years to report expenditures incurred under the agreement, but had
only two years to commit funds under the agreement. The FY 2009 production grant
had similar requirements to commit grant funds within two years by September 30,
2010.

When productions were completed under budget or commitments were canceled,
CAAM de-obligated the unused funds and made them available for re-obligation under
subsequent grants. Since it takes multiple years to complete a show, these de-
obligations often took place after the 2-year grant term had lapsed. Our review
identified five productions de-obligated in FY 2009 that were initially awarded CPB
funds in FYs 2006-2007 (Exhibit H). These de-obligations occurred after the originating
2-year CPB grant agreement period had expired. Instead of returning these funds to
CPB as required by the grant agreement, CAAM re-obligated them to more current
productions under a later grant agreement. We questioned the de-obligated funds
totaling $95,000.

      Recommendations

We recommend that CPB officials:

   1) Enforce existing grant agreement terms and require CAAM to return program
      funds de-obligated after the 2-year grant term expires.

   2) Recover $95,000 in funds de-obligated from expired CPB grants.


                                           6
      CAAM Response

CAAM officials acknowledged that $95,000 of grant funds were de-obligated and used
to provide new productions grants to independent producers. Of these grant funds,
however, $50,000 (for the project entitled “The Buddha”) were re-obligated with the
permission of CPB. When the producer of “The Buddha,” declined these funds late in
contract negotiations, CAAM brought this to the attention of CPB’s Program Officer,
initially through phone conversations in early November and an email exchange dated
November 13, 2009. The Program Officer wanted to verify with CPB’s legal department
CAAM’s ability to re-grant the funds. In an email dated November 18, 2009, she
informed CAAM they were able to reallocate or re-grant the $50,000. CAAM
recommitted the funds and reported the de-obligation to CPB in its narrative for contract
# 12077.

Regarding the $45,000 for the four other projects listed on Exhibit H, CAAM said it erred
in assuming “The Buddha” established a precedent and de-obligated the older
commitments (due to failed contract negotiations), and re-granted the monies in the
subsequent funding cycles. CAAM acknowledged it should have also informed CPB
about these other de-obligations and ask for formal permission to re-grant them.

Regarding the recommendation to refund these monies, CAAM noted that although they
failed to comply with the agreement in terms of obtaining prior approval, it did in fact
reallocate these funds to other productions as is specified in its agreement.

      OIG Review and Comment

Based on CAAM’s response we consider recommendations 1 and 2 unresolved. While
the Program Officer said that CAAM “. . . can reflect that funds have decreased and
either reallocate, or recommit the money to another project,” we do not believe “The
Buddha” project should ever have been booked as a CPB expense in the first place,
since according to CAAM’s e-mail “The Buddha” project’s producer never executed the
grant agreement with CAAM. Without an executed agreement, CAAM did not have a
legitimate basis to originally commit and expense CPB grant funds for this project.
CAAM’s response further indicated that the remaining $45,000 questioned for the other
four projects shown on Exhibit H were de-obligated and recommitted after failed
contract negotiations. As a result, both recommendations remain unresolved until CPB
officials determine whether these were legitimate expenses and even subject to
subsequent de-obligation and recommitment.




                                            7
Further, while the Program Officer’s e-mail granted CAAM approval to recommit the
funds, we found no evidence that this matter was discussed internally within the
Department of Diversity & Innovation to obtain senior executive level concurrence in
accordance with CPB’s De-obligation Policy, dated January 30, 2008.3 As a result, we
suggest that CPB management clarify Program Officer’s authority and ensure
departmental and executive officials with delegated authority approve de-obligations
and recommitments of grant funds.

Sub-recipient Reporting of CPB Expenditures

Our review of CAAM’s sub-recipient agreement terms with independent producers
identified that they did not require sub-recipients to report CPB expenditures or
specified a format to report financial activities under the CAAM sub-recipient agreement.
The lack of sub-recipient reporting of CPB expenditures separate from the total costs
reported and the lack of standardized financial reporting against budgeted categories
did not provide sufficient accountability over the use of CPB grant funds by sub-
recipients.

CAAM sub-recipient agreements Section 15.3 required independent producers to
account for CPB funds separately from other funding sources, as follows:

         in accordance with Section 396 (l) (3) of the Communications Act of
         1934, as amended, it shall keep for a period of three years following the
         completion of the Program, such records as may be reasonably
         necessary to fully disclose the amount and the disposition of the
         proceeds of this Agreement, and to fully disclose: (i) the total cost of the
         program, (ii) the Total CAAM Commitment, (iii) the amount and nature
         of that portion of the Program cost or packaging costs supplied by other
         sources, if any, and (iv) such other records as will facilitate an effective
         audit.

However, the sub-recipient agreement was silent on reporting CPB expenditures
separately from total production costs to account for the expenditure of CPB funds
by the sub-recipient. Further, the grant agreement only references a Final Financial
Report to be submitted to CAAM as one of the sub-recipient’s deliverables, but did
not specify what information should be provided on it.


3
 CPB De-obligation Policy states that when CPB elects not to fully exercise its de-obligation rights (and
have the funds returned) the project officer shall document the reasonable basis for doing so and have it
approved by the department’s Senior Vice President. Any decision not to de-obligate amounts in excess
of $25,000 shall require the additional approval of CPB’s Chief Operating Officer.


                                                    8
Our review of selected sub-recipient Final Financial Reports identified 3 of 6 sub-
recipients that reported project revenues and compared budgets to actual incurred
costs. Two sub-recipients’ did not report revenues or budget amounts by category, they
only reported incurred costs by cost category. The last sub-recipient did not submit a
final financial report and the grant production had been completed for more than a year.
The lack of consistent reporting of the sub-recipient activities did not facilitate effective
oversight by CAAM to identify CPB funds available for de-obligation or to consistently
monitor spending by budgetary category.

       Recommendation

   3) We recommend that CPB officials require CAAM to modify sub-recipient
      agreement terms to require separate reporting of CPB expenditures by budgetary
      category, as well as, total production costs incurred. Additionally, the sub-
      recipient agreement should specify what information will be included in interim
      and final financial reports submitted to CAAM i.e., sources of revenue, budget
      amounts, and expenditures (CPB and total costs) by cost category.

       CAAM Response

CAAM officials said that over the last six months, they have been working with its
counsel to modify grant agreements with independent producers. They also said they
will implement recommendation 3.

       OIG Review and Comment

Based on CAAM’s response, we consider recommendation 3 resolved but open
pending receipt of documentation by CPB grant officials that sub-recipient agreements
have been modified and CPB management accepts the agreement changes.

Reporting Ancillary Income and Interest Earnings

Our review found that CAAM did not certify to CPB that it had not received any ancillary
income during our audit period, as required by the grant. Further, we identified that
CAAM reported interest income for their FY 2008 Operations Grant of $5,580 (Exhibit
B), although they were not required to report this information under the terms of the
CPB grant agreement.




                                              9
    Ancillary Income

Our review of CAAM revenues did not identify the receipt of any ancillary income during
our audit period. Further, our review of CAAM deliverables provided to CPB did not
identify that CAAM had certified that it had not received any ancillary income under CPB
grant agreements.

Section V paragraph 13c of the FY 2009 production grant agreement states:

            CAAM may satisfy its reporting requirement for any year in
            which there are no Gross Proceeds from the exercise of
            Subsidiary or Ancillary Rights by certifying to CPB in writing
            the absence of such Gross Proceeds.

CAAM officials stated they had received nominal ancillary income over the years, as
they generally provided producers with small grants to finish up their productions, or
funded larger budgeted productions with multiple funders. In addition, they stated that
many of the productions had a short shelve life after original showings; therefore
opportunities for earning ancillary income were minimal.

    Interest Income

Our review identified that CAAM reported interest income from their FY 2008
Operations Grant of $5,580, although they were not required to report this information
under the terms of the CPB grant agreement. They did not report any interest earnings
on the FY 2008 Production Grant or on any of the subsequent grants for FYs 2009-
2010, although CAAM officials identified interest earnings of $469 and $483 on the FY
2009 and 2010 production grants in response to our inquiries about interest earnings.
They also told us that the previously reported interest income of $5,580 during FY 2008
was an error and they should have only reported $7264.

The CPB operations and production grants were silent on reporting interest earnings,
however, the production grants Section V paragraph 13d requires CAAM to pay CPB its
share of the CAAM/CPB of ancillary income received from producers, plus the amount
of any interest accrued on CPB’s share of the ancillary income received.




4
 The revised FY 2008 interest income information was provided to us in February 2011 and we did not
have the opportunity to verify the accuracy of this information, as well as, the interest information for FYs
2009-2010.


                                                     10
       Recommendations

We recommend that CPB officials:

   4) require CAAM to annually certify in writing the absence of ancillary income for
      production grants; and

   5) revise CPB operations and production grant terms to require the annual reporting
      of interest earned on CPB held funds (i.e., operations, production, and ancillary
      income).

       CAAM Response

CAAM officials said the report was correct in identifying its failure to certify to CPB the
gross proceeds from subsidiary or ancillary rights. They did not have this certification
built into its reporting format, but have taken steps to address it. They said that they
have been in touch with each of their producers and can state that none of the projects
supported through these grants have generated revenues that approach the minimum
threshold for ancillary income.

As interest earnings were not a contract requirement, CAAM officials said they did not
segregate interest income based on funding sources. The $5,580 of interest reported
was organizational interest, and not specifically interest on CPB monies.

CAAM said CPB has changed their contract requirements for FY 2010-2011 and they
are now segregating interest income.

       OIG Review and Comment

Based on CAAM’s response we consider recommendations 4 and 5 resolved.
Recommendation 4 will remain open until CAAM either reports ancillary revenues
received or certifies in writing that they have not received any ancillary revenues.
Recommendation 5 is closed based on the execution of the current FY 2011-2013
production and operations agreement.




                                             11
Establishing Adequate Internal Controls Over Financial and Media
Department Operations

Our review of CAAM operating procedures for both financial and production operations
identified reportable conditions on the lack of controls over accounting practices and the
monitoring of sub-recipient productions. The lack of adequate internal controls creates
vulnerabilities over financial accounting and reporting, as well as, performance of sub-
recipients to meet the requirements of CPB grant agreements.

Section I paragraph 3 of both the CPB operations and production grant agreements
states:

            CAAM ... . shall perform according to CAAM’s own methods
            of work and shall be in exclusive charge and control of the
            work and responsible for its proper completion;

Based on our review and discussions with management, we identified that CAAM does
not have written policies and procedures to govern accounting practices to ensure
proper authorization and recording of transactions, as well as, its media staff’s
responsibilities to monitor sub-recipient agreements with independent producers.
Further, CAAM’s independent public accountant (IPA) identified in their management
letter significant deficiencies5 in monitoring controls over cash receipts and a material6
weakness over monitoring revenues and expenses related to the National Minority
Consortia. This resulted in a material adjustment to grant revenues and related
expenses, and changed the total of temporarily restricted grant funds received,
released, and remaining during FY 2008. Additionally, the IPA’s FY 2009 management
letter again identified significant deficiencies in festival ticket sales, information on
independent contractors, and write-off actions on expired grants.

During our audit we noted a control design weakness in management’s monitoring of
accounting operations related to the coding and approval of transactions to be recorded
in the general ledger. We found a number of vendor invoices, American Express billing
statements, and check request transactions, that lacked approvals and general ledger

5
  A significant deficiency is a control deficiency, or combination of control deficiencies, that adversely
affects an entity’s ability to initiate, authorize, record, process, or report financial data reliably in
accordance with generally accepted accounting principles such that there is more than a remote
likelihood that a misstatement of the financial statements that is more than inconsequential will not be
prevented or detected by internal controls.
6
 A material weakness is a significant deficiency, or combination of significant deficiencies, that results in
more than a remote likelihood that a material misstatement of the financial statements will not be
prevented or detected by internal controls.


                                                     12
account codes. Without this documentation we have no assurance that the proper
expense codes and departments were being charged in the accounting system.

Additionally, we noted a lack of segregation of duties over payment requests and check
signing authority. In our testing we found that the Business Manager approved payment
requests submitted by the Media Director, who also had check signatory authority.
While the Business Manager approved the payment and the Director of Finance
prepared the check for signature it was returned to the Media Director for check
signature, instead of having the Executive Director sign the check. This lack of
segregation of duties represents a significant internal control weakness and creates
vulnerabilities for abuse. While we recognize the small staff size hampers having
acceptable segregation of duties between these responsibilities, in this situation the
risks can be minimized by having the Executive Director sign all checks for payment
requests initiated by the Media Director.

The Media department’s CAAM Policy for Panelists contains written policies and
procedures for the review and evaluation of producers’ production projects, approved by
CAAM’s Board of Directors. Specifically, CAAM has written guidance on funding goals,
instructions outlining panelist’s review responsibilities, and evaluation forms to document
proposal evaluation scores. Awards decisions are made by CAAM staff (Executive
Director, Director of Programs, and Media Fund Director) after receiving the independent
reviewers’ recommendations; a final list is presented to the CAAM Board of Directors for
approval.

However, we noted that the media department does not have written policies and
procedures for monitoring sub-recipient agreements with independent producers to
ensure projects are completed timely and within budgets to meet CAAM goals. We
were told that new staff members work with the person they are replacing to learn their
job responsibilities. However, the lack of written policies and procedures for future
reference can lead to confusion regarding processes needed to prepare producer
contract documents, monitor contract deliverables, and provide support to the
producers.

       Recommendation

   6) We recommend that CPB officials require CAAM to establish written policies and
      procedures for accounting practices, including appropriate internal controls with
      separation duties addressing disbursement requests and check signing, as well as,
      the media department’s oversight of sub-recipient agreements with independent
      producers.



                                             13
       CAAM Response

CAAM officials said that since 2009 they have been reviewing and updating its financial
systems and procedures in phases. They began by transitioning to a more suitable and
robust accounting software in early 2009. Additionally, they developed a new chart of
accounts that better suited the increasing complexities of various grant requirements.
The next phase of changes is in financial procedures. They are currently testing and
finalizing its procedures before documenting them in a procedures manual. Procedures
and practices are being vetted by its IPA. The IPA’s current management letter has
concluded that CAAM does not have significant deficiencies in internal controls. The
particular “significant deficiency in monitoring controls” found in their audit report of
2007-2008 was corrected the following year.

In the 2007-2008 audit report, the IPA noted a “material adjustment” in revenue and not
a material weakness in our overall internal control system. The material adjustment
was a result of a misunderstanding about National Minority Consortia monies that were
pooled together for an election project in 2008. As a member of the consortia, CAAM
officials said it acted as the project lead and performed the accounting. The IPA
mistakenly believed CAAM was the financial agent rather than the project lead. As a
result, the IPA determined that the monies for the project were not income but a liability
owed to the other agencies. CAAM had originally listed the monies as Temporarily
Restricted funds because the project was not completed at the end of the fiscal year.
The IPA felt that this was a material adjustment and not a material deficiency, as it was
a one-time arrangement with NMC partners.

In regards to the lack of segregation of duties over payment requests and check
signing, CAAM said they are working towards changing its policies and procedures
manual to improve controls.

CAAM officials said that staff in its Media Fund department were monitoring sub-
recipients/grantees’ projects. Payments to grantees were made only when deliverables
were met; exceptions were at the discretion of either the Program Director or the
Executive Director. This procedure was followed and enforced. However, CAAM
agreed that the lack of written procedures could lead to confusion, particularly if there’s
a staff change. CAAM also agreed with the recommendation to establish written
policies and procedures and this manual was currently being developed.

CAAM said they were continually reviewing financial and administrative procedures and
making improvements in phases. They said its 2009-2010 audit found no significant
deficiencies.



                                            14
       OIG Review and Comment

Based on CAAM’s response we consider recommendation 6 to be unresolved until CAAM
finalizes their current efforts to establish written procedures, as outlined in its response.




                                             15
                                                                              Exhibit A

                          SCOPE AND METHODOLOGY

We conducted our audit in accordance with Government Auditing Standards (GAS) for
financial audits to determine the accuracy of costs reported to CPB, that grant funds
were spent in accordance with CPB grant agreement terms, and that CAAM complied
with applicable provisions of the Public Broadcasting Act. We performed our audit
field work during the period August through October 2010.

The scope of the audit included tests of the costs claimed by CAAM on active CPB
production and operations grants during the period October 1, 2007 – March 31, 2010.
Final and interim reports submitted to CPB as of March 31, 2010 are provided in
Exhibits B through G.

In conducting our audit, we reviewed CPB’s grant files and discussed the award and
administration of the grants with CPB officials from the Office of Business Affairs and
the Office of Television and Digital Video Content. At CAAM, we discussed the
agreements with financial, production, and management officials. We also reconciled
the financial data maintained by CAAM in its accounting records by grant to the
expenses it reported to CPB.

We tested the accuracy of grant expenditures that CAAM claimed by performing
financial reconciliations and comparisons to underlying accounting records and the
audited financial statements to verify transactions recorded in the general ledger and
reported to CPB on payment requests. We also evaluated compliance with the grant
agreement terms, in part, by testing a judgmental sample of 251 expenditures for the
grants reviewed, valued at $1,154,886, against supporting documentation maintained
by CAAM. The transactions tested included a variety of expenditure types such as,
payroll, travel, producer contracts, and consulting fees. We also judgmentally selected
eleven producer contracts for FYs 2008, 2009, and 2010 to review contract terms and
conditions.

We also reviewed documentation of CAAM’s compliance with the applicable provisions
of the Public Broadcasting Act. Specifically, we reviewed CAAM’s public inspection files
to verify that it contained all the information required by the Act, as well as, CAAM’s
compliance with EEO grant agreement terms.

We gained an understanding of the internal controls over the preparation of the grant
reports, cash receipts, and payment authorizations to plan our substantive testing.


                                           16
Further, to obtain reasonable assurance that financial reports submitted to CPB were
free of material misstatements, we performed tests of compliance with certain
provisions of law and grant agreement requirements, when noncompliance could have a
direct and material effect on the grant report amounts. To assist in our audit planning
and assure ourselves that we could rely on the work performed by CAAM’s independent
public accountant (IPA), we discussed and reviewed the IPA’s internal control and fraud
risk assessment working papers, as well as, their financial statement work.




                                          17
                                                              Exhibit B



     Center for Asian American Media, Inc.
Report to the Corporation for Public Broadcasting
   Operations FY 2008 Final Financial Report
       For the 18 Months Ending 3/31/2009


                                      CPB FY 08-
                                      09 Budget    Actual

 Revenue:
 CPB Operations Grant*                  $605,000   $605,000
 Interest Income                               0      5,580
 Total Revenue                          $605,000   $610,580

 Expenses:
 Salaries, Taxes & Benefits             $300,270   $300,225
 Accounting & Audit Fees                  17,000     16,275
 Bank Charges                              7,500      7,941
 Board Expenses                            3,800      3,531
 Books, Publications                         800        854
 Consultants                              60,400     63,297
 Copies/Xerox                                500        485
 Insurance                                13,000     12,549
 Legal                                     1,300      1,165
 Mailing/Shipping                         15,000     15,037
 Miscellaneous                             2,510      2,728
 Organizational Dues & Fees                2,500      2,500
 Patrol Service                            8,000      8,000
 Printing                                 13,600     13,600
 Publicity & Marketing                    23,000     23,000
 Rent/Utilities                           65,000     65,000
 Rental of Meeting Rooms                   1,700      1,700
 Rental off Site Storage                   8,200      8,200
 Supplies, Equipment & Maintenance        20,000     20,000
 Staff Training                            2,000      1,783
 Telephone/Fax                             7,000      6,694
 Travel                                   12,500     11,851
 Website                                  25,000     24,165
 Total Expenses                         $605,000   $610,580




                                 18
                                                                                             Exhibit C



                    Center for Asian American Media, Inc.
               Report to the Corporation for Public Broadcasting
                  Operations FY 2009 Final Financial Report
                For the Period April 1, 2009 Through 9/30/2009

                                                     CPB FY 2009
                                                       Budget                  Actual

             Revenue:
             CPB Operations Grant7                                 $0                   $0
             Total Revenue                                         $0                   $0

             Expenses:
             Salaries, Taxes & Benefits                     $138,146             $138,129
             Accounting & Audit Fees                           3,725                3,725
             Bank Charges                                      6,500                6,695
             Consultants                                      14,250               14,250
             Insurance                                         6,600                6,605
             Legal                                             2,500                2,437
             Mailing/Shipping                                  2,300                2,349
             Miscellaneous                                     1,500                1,527
             Payroll Service                                   1,154                1,048
             Printing                                          1,800                1,762
             Publicity & Marketing                             2,500                2,562
             Rent/Utilities                                   29,000               29,038
             Supplies, Equipment & Maintenance                 6,200                6,169
             Staff Training                                    6,200                6,169
             Telephone/Fax                                     5,000                4,731
             Travel                                            7,625                7,607

             Total Expenses                                 $235,000             $235,000




7
    CAAM’s report did not include CPB operations grant revenues of S235,000.


                                                   19
                                                                                         Exhibit D



                    Center for Asian American Media, Inc.
               Report to the Corporation for Public Broadcasting
                  Operations FY 2010 Final Financial Report
                      For the 4 Months Ending 1/31/2010
                                                            CPB FY
                                                             2010
                                                            Budget         Actual

                   Revenue:
                   CPB Operations Grant8                           $0               $0

                   Total Revenue                                   $0               $0

                   Expenses:

                   Salaries, Taxes & Benefits                $330,229      $101,604
                   Accounting & Audit Fees                     18,000         4,799
                   Board Expenses                               4,000         1,155
                   Consultants                                 54,000        15,639
                   Dues & Finance Charges                      10,000         1,611
                   Hospitality                                  4,000         1,253
                   Insurance                                   10,000         1,140
                   Mailing & Shipping                           8,000         1,779
                   Miscellaneous Expense                        2,000           746
                   Occupancy                                   58,800        18,757
                   Printing & Copying                           5,000            77
                   Supplies & Equipment                        22,971         4,792
                   Telephone & Internet                         8,000         2,785
                   Travel & Conferences                        20,000         1,784

                   Total Expenses                            $555,000      $157,920




8
    CAAM’s report did not include CPB operations grant revenues of $555,000.


                                                   20
                                                             Exhibit E



     Center for Asian American Media, Inc.
Report to the Corporation for Public Broadcasting
   Production FY 2008 Final Financial Report
       For the 12 Months Ending 9/30/2008

    Revenues & Expenses             CPB Budget    Actual

    CPB Revenue                        $636,363   $459,907

    Expenses:
    Salaries                           $149,514   $149,514
    Fringe Benefits                      26,912     29,137
       Personnel Subtotal              $176,426   $178,651

    Media Fund Awards                  $354,000   $349,544

    Media Fund Expenses                 $27,937    $29,502
    Broadcast Expense                    78,000     83,236
      Non-Salary Expense/Non
    Award                              $105,937   $112,739

    Total Expenses                     $636,363   $640,934




                               21
                                                                                    Exhibit F



                     Center for Asian American Media, Inc.
                Report to the Corporation for Public Broadcasting
                   Production FY 2009 Final Financial Report
                       For the 12 Months Ending 9/30/2009

                                                           CPB
                         Revenues & Expenses              Budget         Actual

                         CPB Revenue9

                         Expenses:
                         Salaries                         $173,804       $173,804
                         Fringe Benefits                    39,778         39,777
                            Personnel Subtotal            $213,582       $213,581

                         Media Fund Expenses              $371,381       $365,123
                         Broadcast Expense                  80,350         79,978
                         Digital Media Expenses             21,050         21,152

                         Total Expenses                   $686,363       $679,835




9
    CAAM’s report did not include CPB production revenues of $686,363.


                                                   22
                                                       Exhibit G



     Center for Asian American Media, Inc.
Report to the Corporation for Public Broadcasting
   Production FY 2010 Final Financial Report
       For the 4 Months Ending 1/31/2010

                                  CPB
   Revenues & Expenses           Budget     Actual

   CPB Revenue                   $954,545   $240,000

   Expenses:
   Broadcast & Media Fund        $862,833   $214,045
   Digital Media                   91,712     32,057

   Total Expenses                $954,545   $246,102




                            23
                                                                              Exhibit H


                Center for Asian American Media, Inc.
                  Productions with De-obligations
                           FY 2009 Activities


                                                            Year Grant
                               Original Grant    Award        Funds        Amount
          Productions           Year Funds      Amount       Expired     De-obligated

 1 And Thereafter                  2006           $10,000     2007            $10,000
 2 Beijing Taxi                    2006            15,000     2007             15,000
 3 Out of Status                   2006             5,000     2007              5,000
 4 The Buddha                      2007            50,000     2008             50,000
 5 A Song for Ourselves            2007            15,000     2008             15,000

Total FY 2009 De-obligations                      $95,000                     $95,000




                                          24
